No. 20-1233
IN THE

Supreme Court of the United States
JOHNNY GATEWOOD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE

I, Mark W. Mosier, a member of the Bar of this Court, certify that on April 7,
2021, three copies of the Brief for Amici Curiae The Center on the Administration of
Criminal Law at NYU School of Law and Kentucky Association of Criminal Defense
Lawyers were deposited with FedEx for delivery overnight, and a copy was sent by
email, to counsel indicated on the attached service list.
I further certify that all parties required to be served have been served.
s/ Mark W. Mosier
Mark W. Mosier
COVINGTON & BURLING LLP
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
mmosier@cov.com
Counsel of Record for Amici Curiae

1

SERVICE LIST (No. 20-1233)
Counsel for Petitioner
Neal Kumar Katyal, Esq.
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
Neal.katyal@hoganlovells.com
Counsel for Respondent
Elisabeth B. Prelogar, Esq.
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

2

